       PUBLIC
      RELEASE


          INTERNATIONAL TRADE
               ADMINISTRATION

Trade Events: Improvements Needed
       in Planning and Managment

   Audit Report No. IAD-9714-8-0001 / March 1998




Office of Audits, Business and Trade Audits Division
Trade Events: Improvements Needed                                                                                  Final Report
in Planning and Management                                                                                         March 1998

                                            TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

I. Improved Communication and Coordination Needed
    Between TD and Foreign Commercial Service Posts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          A. Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
          B. ITA response to draft report and OIG analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

II. Late Cancellations of Trade Events Waste Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          A.   Lack of communication within TD contributes to late cancellations . . . . . . . . . . . . . 8
          B.   Late cancellations for TD continue in FY 1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
          C.   Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
          D.   ITA response to draft report and OIG analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

III. TEMS: Date Is Incomplete and Unreliable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

          A.   Apparent lack of motivation to enter TEMS data . . . . . . . . . . . . . . . . . . . . . . . . . .                  10
          B.   TEMS does not include all trade events supported by ITA . . . . . . . . . . . . . . . . . . .                       12
          C.   Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   12
          D.   ITA response to draft report and OIG analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . .               12

IV. Basis for and Definitions of ITA’s Performance Measures
     for Trade Events Are Unclear . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

          A. ITA’s Office of Financial Management (OFM) cannot explain basis
                for performance measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
          B. Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
          C. ITA response to draft report and OIG analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

V. Financial Status of Individual ITA Trade Events Cannot Be Determined
    from TEMS or Records of ITA’s Office of Financial Management . . . . . . . . . . . . . . . . . . 16

          A. TEMS lacks final obligation reports for most ITA trade events . . . . . . . . . . . . . . . . 16
Trade Events: Improvements Needed                                                                               Final Report
in Planning and Management                                                                                      March 1998

         B. Many trade events do not have unique project numbers
               in OFM’s system . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
         C. Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
         D. ITA response to draft report and OIG analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

VI. Effectiveness of Business Facilitation Centers and Product Literature
     Centers Warrants Management Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

         A. Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
         B. ITA response to draft report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

APPENDIXES:

         A.   Types of ITA Trade Events
         B.   IO and EPS Trade Events - FY96
         C.   Reasons for TD Cancellations - FY96
         D.   Reasons for IO Cancellations - FY96
         E.   Reasons for TD Cancellations - FY97
         F.   US&FCS Workload Measures - FY96
         G.   ITA’s Response to Draft Report
Trade Events: Improvements Needed                                                      Final Report
in Planning and Management                                                             March 1998

                                 EXECUTIVE SUMMARY

Supporting trade events is a key component of the International Trade Administration’s export
promotion strategy. These export promotion efforts include different types of trade events to
promote U.S. exports. ITA has defined a trade event as “any organized activity that places U.S.
exporters in contact with foreign markets.” Three of ITA’s four components are involved in trade
events--Trade Development (TD), the U.S. and Foreign Commercial Service (US&FCS), and
Market Access and Compliance.

As a follow-on to our previous review of the role of Trade Development in the National Export
Strategy,1 our review focused primarily on the trade events of TD. Cognizant that the majority of
ITA’s trade events are executed by US&FCS, we also evaluated certain aspects of its trade events
in FY 1996, principally as they related to our review of TD’s trade events. According to data
provided by the Trade Events Management System (TEMS), ITA’s reporting system for its trade
events, there were 419 trade events held in FY 1996. TD was responsible for 83 of these events,
most commonly Business Facilitation Centers (BFCs). These events are held at leading
international trade fairs to assist U.S. participants or promote the products of specific companies.

In 1993, ITA established the Trade Events Board to provide improved policy direction and
guidance on trade event planning, management, and financial matters. There is also an intra-ITA
working group, the Trade Events Planning Committee, to review trade event planning and
management. TEMS is the successor to an earlier system developed to automate trade events
data collection, statistical analysis, and reporting functions. Although TEMS is organizationally
located in US&FCS, it is an ITA-wide system with the primary objective of providing an event
planning and financial data system for trade events.

Although problems with trade event activities have been identified in a number of prior internal
and external reviews, we identified several areas warranting management attention that continue
to hinder ITA’s ability to most effectively pursue its trade event activities.

C        Communication and coordination between TD and US&FCS posts need improvement. In
         particular, TD event officers should provide the posts with adequate information
         sufficiently in advance of an event to allow for maximum preparation and to increase the
         potential for success (see page 4).




         1
          Advocacy Center: Achievements Need Better Documentation (TID-8375-7-0001, March
1997).

                                                 i
Trade Events: Improvements Needed                                                    Final Report
in Planning and Management                                                           March 1998

C      Internal controls are needed throughout ITA to ensure that cancellations of trade events--
       when necessary--are done in a proper and timely manner. TD has the highest percentage
       of canceled trade events and should work with appropriate ITA officials to establish an
       internal quality review procedure at the Assistant Secretary’s level to evaluate its
       proposed events (see page 6).

C      The end-of-show data in TEMS is incomplete and does not provide the kind of
       management information that would be most useful to ITA. We found that all ITA-
       supported events are not included in TEMS. In addition, ITA management needs to
       decide what role TEMS will have in providing performance measures (see page 10).

C      US&FCS trade event performance measures, presented in ITA’s budget submission, relied
       on data requested from the posts, not on TEMS. However, the basis for the data used
       could not be explained by ITA’s Office of Financial Management (OFM). Performance
       measures need to be clearly identified and defined. Finally, if ITA management intends to
       rely on TEMS for performance data, guidelines and internal controls are needed to ensure
       that such data is entered on a timely basis (see page 14).

C      Neither TEMS nor OFM records can be used to reliably determine the financial status of
       individual ITA trade events. TEMS lacks final obligation reports for most ITA trade
       events, and many trade events do not have unique project numbers in OFM’s system. At a
       minimum, financial data for all trade events using trust funds should be submitted by the
       posts, reviewing officers at ITA headquarters should ensure that final obligation reports
       are entered into TEMS, and all trade events should have unique project identification
       numbers in OFM’s system so that these events can be tracked individually (see page 16).

C      The effectiveness TD’s principal trade events activities (Business Facilitation Centers,
       Product Literature Centers, and catalog shows) should be assessed to determine if these
       types of events are an efficient use of ITA resources (see page 20).

This report contains recommendations on pages 5, 9, 12, 15, 18, and 20 to address these issues.

ITA officials generally agreed with the findings and recommendations in our draft report.
However, ITA provided additional comments and suggested changes. These comments and
suggested changes were considered and, where appropriate, are reflected in the final report.
ITA’s official response to the draft report is attached as Appendix G.




                                                ii
Trade Events: Improvements Needed                                                       Final Report
in Planning and Management                                                              March 1998

                                      INTRODUCTION

Supporting trade events is a key component of the International Trade Administration’s export
promotion strategy. ITA has defined a trade event as “any organized activity that places U.S.
exporters in contact with foreign markets.” (See Appendix A.) Three of ITA’s four components
are involved in trade events--Trade Development (TD), the U.S. and Foreign Commercial Service
(US&FCS), and Market Access and Compliance (MAC).

As a follow-on to our previous review of the role of Trade Development in the National Export
Strategy,1 our review focused primarily on the trade events of TD in fiscal year 1996. However,
because the majority of ITA’s trade events are executed by the US&FCS, we also evaluated
certain aspects of its trade events activities in FY 1996 as they related to our review of TD’s trade
events.

In 1993, in an effort to deal with mounting concerns about the need for improved coordination
and handling of ITA trade events, ITA established the Trade Events Board to provide policy
direction and guidance on trade event planning, management, and financial matters. The Board
was given responsibility for developing goals and strategies for the trade event program,
establishing and modifying the trade event calendar, appointing event managers, approving event
budgets, and monitoring event activity. More recently, with the issuance of guidelines for
Departmental Trade Missions by the Secretary of Commerce, the Trade Events Board is now
responsible for reviewing and approving the mission statement for missions sponsored by ITA.

The trade-event planning process is an 18- to 30-month cycle with about nine months estimated
for the event selection or planning phase, and nine to 18 months estimated for event recruitment.
The ITA Trade Events Planning Committee (TPC) is the intra-ITA working group established to
review trade event planning and management.

The Trade Events Management System (TEMS) is the successor to an earlier system developed
to automate trade events data collection, statistical analysis, and reporting functions. Although
TEMS is organizationally located in US&FCS, it is an ITA-wide system with the primary
objective of providing ITA with an event planning and financial accounting system for trade
events expenditures. As shown on the next page, according to data provided by TEMS, there
were 419 trade events held in FY 1996 by TD, MAC, and the three subunits of US&FCS, which
are International Operations, Export Promotion Services, and Domestic Operations. However,
ITA’s budget submission for FY 1998 indicated that over 1,900 trade events were held in
FY 1996.


         1
          Advocacy Center: Achievements Need Better Documentation (TID-8375-7-0001, March
1997).

                                                 1
Trade Events: Improvements Needed                                                         Final Report
in Planning and Management                                                                March 1998


                              ITA Trade Events - FY96
                                                TEMS Data
      200         185


      150
                                   128

      100                                                          83


        50
                                                      15                              8
         0
                   IO              EPS                DO           TD              MAC



Business Facilitation Centers (BFCs) were the most predominant type of TD events. These
events are held at leading international trade fairs to assist U.S. participants or promote the
products of specific companies through video presentations, panel displays, or catalogs. The
following graph illustrates the types of TD trade events in FY 1996.


                            TD Trade Events - FY96
                                            TEMS Data
        35        33
        30                    28
        25
        20
        15                                 13
        10
         5                                                 4         3            2
         0
                 BFC          TM          TFW              SEM     SFW          RTM




As shown in Appendix B, Trade Fairs (overseas procured) were the most predominant event
organized by US&FCS’s International Operations, and Certified Trade Fairs were the most
predominant event for US&FCS’s Export Promotion Services in FY 1996.

                                                  2
Trade Events: Improvements Needed                                                    Final Report
in Planning and Management                                                           March 1998

                         PURPOSE AND SCOPE OF AUDIT

This audit was a continuation of our overall review of TD activities, the first of which was a
review of the Advocacy Center. The purpose of this audit was to review TD’s trade event and
related activities in order to determine whether resources are being used in the most effective,
efficient, and economical manner. While our audit initially focused on events developed and
carried out by TD, any review of trade event activities requires that we examine, to some degree,
the role of US&FCS in ITA’s trade events. US&FCS plays a major role in the development and
conduct of trade events and has developed TEMS to monitor trade event activities. We reviewed
applicable laws, regulations, policies, and procedures. Since, according to the TEMS database,
MAC and US&FCS’s Domestic Operations were responsible for relatively few events, we did not
include their trade events in our review.

The Department of Commerce’s export promotion authority has six principal bases: “Organic”
authority enacted in 1903, Reorganization Plan No. 3 of 1979, the Export Administration
Amendments Act of 1985, the Omnibus Trade and Competitiveness Act of 1988, the Export
Enhancement Act of 1992, and the Jobs Through Trade Expansion Act of 1994.

We interviewed TD and US&FCS headquarters officials and several FCS officers. We examined
selected files and records and reviewed other appropriate documentation. Our analysis included a
review of the range of geographical areas, industry sectors, and outcomes from ITA trade events.
Our field work was completed in August 1997.

We reviewed the effectiveness of internal controls related to the management and planning of
trade events and identified several weaknesses that warrant management’s attention. Our review
included an assessment of the reliability of computer-generated data because such data played a
significant role in our review. Our review of ITA’s trade event activities revealed no evidence
that ITA was not complying with these applicable laws and regulations.

Our audit was conducted at ITA headquarters in Washington, D.C. The audit was conducted in
accordance with Government Auditing Standards, issued by the Comptroller General of the
United States, and was performed under the authority of the Inspector General Act of 1978, as
amended, and Department Organization Order 10-13, dated May 22, 1980, as amended.




                                                3
Trade Events: Improvements Needed                                                     Final Report
in Planning and Management                                                            March 1998

                      FINDINGS AND RECOMMENDATIONS

I.     IMPROVED COMMUNICATION AND COORDINATION NEEDED BETWEEN
       TD AND FOREIGN COMMERCIAL SERVICE POSTS

The need for improved communication and coordination among ITA agencies has previously been
cited in a number of reports and acknowledged by ITA managers. The Trade Events Board and
its working committee, the TPC, were established in large part to provide policy direction and
guidance on trade event planning and management. However, we found that cooperation and
coordination between TD and US&FCS overseas posts have been mixed.

In assessing selected TD trade events, we interviewed five FCS officers and received E-mail
messages from four others concerning their experiences with TD. Most of the officers said that
their experiences have depended on the individual TD office involved in a trade event. Certain
TD offices were praised for their timely communication with the posts and cooperation
throughout the planning process, while others were regarded as so uncooperative, even hostile,
that the FCS officers preferred to never work with them again. Two FCS officers described
instances in which they had requested mailing lists from TD officials who refused to provide the
information.

A key factor cited by the FCS officers was whether the TD official would keep them informed on
an event’s tentative participants and their specific needs in the crucial six- to eight-week period
prior to an event and respond in a timely manner to their inquiries. In most cases, this six- to
eight-week period is the phase that requires the majority of post-related support, e.g., arranging
appointments for participating U.S. companies. One FCS officer described two instances in which
the late receipt of information from TD event officers made it more difficult for the post to
properly prepare for the scheduled events. An FCS officer at another post also described an event
with the same problem. An FCS officer at a third post described a recent event which was
characterized by a lack of and at times contradictory information from TD.

Another factor cited by one FCS officer was whether the TD official would first discuss a planned
event directly with the post before proposing the event to the Trade Events Board. This FCS
officer praised TD’s Environmental Technologies Exports (ETE) for this type of coordination.
This officer and an FCS headquarters staff person said that ETE kept the posts informed and
responded in a timely manner to post inquiries.

On the other hand, two TD officers said that they had attempted to discuss event information with
certain posts before formally proposing the event, but never received any response. In one
instance, senior TD officials met with an FCS officer while he was in Washington to discuss a
proposed event, but never received a response after the officer returned to post. According to

                                                4
Trade Events: Improvements Needed                                                     Final Report
in Planning and Management                                                            March 1998

one TD official, two trade events to that country were canceled because of the lack of
cooperation from the post. The TD official felt that TD has lost some credibility with the
industry’s companies because of the two cancellations.

A.     Recommendation

We recommend that the Under Secretary for International Trade ensure that TD event officers
provide US&FCS officers at the posts with adequate information, sufficiently in advance of a
scheduled trade event, in order that the posts have adequate time to properly prepare for the
event.

B.     ITA Response to Draft Report and OIG Analysis

In response to our draft report, the Deputy Under Secretary agreed with our recommendation and
indicated that ITA will continue to ensure that there is adequate lead time and that adequate
information about each event is communicated between headquarters and posts. However, the
Deputy Under Secretary indicated there is a lack of recognition in the draft report that
communication and coordination have improved since the Trade Events Board and the TPC were
established. In addition, the Deputy Under Secretary’s response provided additional comments
and suggested changes.

Based on our past work on ITA, we agree that communication and coordination improved with
the establishment of the Trade Events Board and the TPC. However, we believe there is still
considerable room for improvement, as indicated by our review. ITA’s comments and suggested
changes to the draft report were considered and, where appropriate, are reflected in the final
report.




                                                5
Trade Events: Improvements Needed                                                     Final Report
in Planning and Management                                                            March 1998

II.      LATE CANCELLATIONS OF TRADE EVENTS WASTE RESOURCES

Not surprisingly, changing market conditions, insufficient participation, or unexpected political
events are some of the reasons that may result in the cancellation of a scheduled trade event.
According to data provided by TEMS, ITA had 117 canceled trade events in FY 1996. The
following table shows FY 1996 trade events--scheduled, actual, and canceled--for Trade
Development, US&FCS’s International Operations, and US&FCS’s Export Promotion Services,
based on the TEMS data. We found that too often events were not canceled in a timely manner,
wasting ITA resources and undermining the purpose of TEMS.

                                    Trade Events (FY 1996)
       ITA Unit         Scheduled             Actual            Canceled            Percent
                                                                                    Canceled
         TD                135                   83                 52                 39%
      US&FCS-IO            233                 185                  48                 21%
  US&FCS-EPS               145                 128                  17                 12%
        Total              513                 396                 117                23%

According to two of the nine FCS officers from whom we received comments, the uncertainty
whether a TD trade mission would come to fruition made it difficult for a post to plan its event
calendar. If the post scheduled a TD trade mission that was later canceled, the cancellation was
generally too late for the post to schedule other trade missions from states or associations. In
FY 1996 TD had 12 canceled trade missions and 24 actual trade missions. According to TEMS
data, of the 12 canceled trade missions, two were canceled less than two months before the
scheduled event date; four were canceled less than one month before the scheduled event date,
and six showed cancellations dates after the scheduled start date.
.
We interviewed officials in TD and US&FCS to determine if there were any written guidelines on
when recruitment efforts should cease and an event should be canceled. Although no written
guidelines were available regarding the cancellation of trade events, several officials in US&FCS’s
International Operations said that approximately eight weeks before the scheduled date should
generally be the minimum cancellation period in order that the posts do not continue to expend
valuable resources needlessly. This eight-week time frame has been a long-standing guideline
within ITA.




                                                 6
Trade Events: Improvements Needed                                                    Final Report
in Planning and Management                                                           March 1998

According to TEMS data, over half of the trade events canceled in FY 1996 were done so less
than eight weeks before the scheduled start date. The following table shows the relationship of
the cancellation date to the scheduled date for trade events for TD and for US&FCS’s
International Operations and Export Promotion Services:

                  Trade Events: Notice of Cancellation (According to TEMS)
        ITA Unit               Number of                Over 8 Weeks’           Less Than 8
                             Canceled Events               Notice              Weeks’ Notice
           TD                        52                        25                    27
      US&FCS-IO                      48                        18                    30
     US&FCS-EPS                      17                        12                     5
          Total                    117                         55                    62

The 27 TD events canceled with less than eight weeks’ notice included 18 events with
cancellation dates after the scheduled event date. We asked TD officials for documentation
regarding the actual cancellation dates for the 27 trade events canceled with less than eight
weeks’ notification--the date that US&FCS’s International Operations and/or the post was
notified, not the date that the cancellation was entered into TEMS. However, most TD officers
could not provide any written documentation of when the event was actually canceled.

An analysis of the reasons given for the 27 cancellations shows that six events were postponed
and 13 events were canceled for reasons beyond TD’s control. These 13 events were canceled
due to the government-wide furlough, cancellation by the organizer, cancellation because the
event was certified and no longer a TD event, or cancellation due to a lack of post response.
However, six of those late cancellations were due to insufficient industry interest. With the
exception of events canceled because of the furlough and possibly those canceled by the
organizer, TD officers should have been able to notify TEMS more than eight weeks prior to the
scheduled date. A table showing the reasons for the 27 cancellations and types of TD events is
presented in Appendix C.

US&FCS’s International Operations had 30 events canceled less than eight weeks before the
scheduled date, including 17 events with cancellation dates after the scheduled event date. Eleven
events were postponed, and 12 events were canceled for reasons beyond the post’s control.
These 12 events were canceled due to economic conditions, erroneous categorization, or
cancellation by the organizer. A table showing the reasons for the 30 cancellations and types of
IO events is presented in Appendix D.


                                                7
Trade Events: Improvements Needed                                                       Final Report
in Planning and Management                                                              March 1998

In FY 1996 over 30 percent of the events for TD and US&FCS’s International Operations had
cancellation dates after the scheduled start date. The lack of timely reporting of cancellations by
event officers into TEMS undermines one of its purposes--to serve as a tool for management
evaluation. As discussed in a later section, TEMS data may not be reliable due to the low priority
given to data entry by a number of reviewing officers.

We believe that guidelines should be established and internal controls implemented throughout
ITA in order that notification of trade event cancellations is done in a timely manner. We also
believe that thresholds for timeliness should be established as part of these written guidelines.

A.     Lack of Communication Within TD Contributes to Late Cancellations

To analyze TD cancellations, we interviewed 40 TD staff persons. We found that communication
within TD was a problem. One area of concern was the appearance of erroneous information for
TD events on the trade events calendar. According to two senior TD officials, several events that
were only in the preliminary planning stage have appeared on the calendar. Two other TD
officials said they have appeared on the trade events calendar as the responsible official for
specific events, but had no idea how the event was scheduled or why they were listed as the lead
contact.

Another area of concern is the delayed processing of cancellation notices to TEMS. Several TD
officials said they had submitted timely memos to cancel events, but they never knew what
happened to those memos. It was, they said, as if their memos “disappeared into a black hole.”
In one case, the cancellation of an event, scheduled for early August 1996, was approved by TD’s
Assistant Secretary and a cable notifying the post was sent in May 1996. We found, however,
that a July cancellation date is shown in TEMS. The “change form” was forwarded by the event
officer on June 10, 1996, but it was not forwarded by TD’s Office of Export Promotion
Coordination until July 10, 1996.

B.     Late Cancellations for TD Continue in FY 1997

As of early August 1997, TD had 112 trade events scheduled for FY 1997. Fifty of those events
had been canceled as of early August 1997, 22 with less than eight weeks’ notice, including 11
events with cancellation dates after the scheduled event date. Seven events canceled with less
than eight weeks’ notice were trade missions canceled due to “insufficient industry interest.” A
table showing the reasons for the 22 cancellations and types of events canceled is presented in
Appendix E.




                                                 8
Trade Events: Improvements Needed                                                     Final Report
in Planning and Management                                                            March 1998

We believe that an internal quality review procedure should be established to evaluate TD’s
proposed trade events before they are proposed to the TPC. This action could reduce the number
of trade event cancellations and thereby minimize the waste of time and resources.

C.     Recommendations

We recommend that the Under Secretary for International Trade ensure that:

(1)    Guidelines are established and internal controls implemented throughout ITA so that
       notification of trade event cancellations is done in a timely manner. Thresholds should be
       established in the written guidelines.

(2)    TD establishes an internal quality review procedure at the Assistant Secretary’s level to
       evaluate its proposed trade events before they are proposed to the TPC.

D.     ITA Response to Draft Report and OIG Analysis

In response to our draft report, the Deputy Under Secretary generally agreed with our
recommendations. However, while ITA officials agree that cancellations of events should be
timely, they do not agree with the threshold of “at least eight weeks” for all events, as
recommended in our draft report, because of a need for flexibility. In addition, the Deputy Under
Secretary’s response provided additional comments and suggested changes.

As noted in our draft report, ITA had no written guidelines regarding when an event should be
canceled. The eight-week guideline was suggested by several IO officials during interviews. We
stand by our recommendation that specific written guidelines are needed for trade event
cancellations. If ITA management feels that flexibility is needed, those needs should be addressed
as part of the guidelines. ITA’s comments and suggested changes to the draft report were
considered and, where appropriate, are reflected in the final report.

ITA concurred with our other recommendation–the need for an internal quality review procedure
at the Assistant Secretary’s level in Trade Development.




                                                9
Trade Events: Improvements Needed                                                       Final Report
in Planning and Management                                                              March 1998

III.   TEMS: DATA IS INCOMPLETE AND UNRELIABLE

A July 1995 memo from the then Acting Under Secretary for International Trade to the Director
General of the US&FCS, the Assistant Secretary of TD, and the Assistant Secretary of MAC,
stated:

       “The Trade Events Management System (TEMS) is the primary tool used by the
       Trade Events Board to plan, budget, monitor and evaluate ITA-run events.
       Accordingly, it is essential that all pertinent information, including financial data,
       scheduling changes and status updates, be entered into TEMS in a timely manner.”

However, we found that the data in TEMS is incomplete and, therefore, does not provide the kind
of management information envisioned by ITA. The incomplete and unreliable nature of TEMS
appears to be due in part to a lack of motivation by ITA staff to ensure that data is entered on a
timely basis. This lack of motivation is based on perceptions by ITA staff that TEMS data is
irrelevant and not valued. Another factor for the incomplete nature of TEMS is that all ITA-
supported events are not included in TEMS.

A.     Apparent Lack of Motivation to Enter TEMS Data

According to the US&FCS Operations Manual, the FCS officer is responsible for preparing an
end-of-show report. This event summary includes certain performance measures such as the
number of paying participants, sales leads, agents/representatives signed, licensee agreements
signed, joint venture agreements signed, visitors to the event, and export sales made during the
event. According to a September 1995 cable sent by US&FCS Washington to all FCS posts, end-
of-show reports are to be submitted for all Commerce-recruited overseas events. The cable
stated:

       “The submission and collection of this data is critical for properly evaluating the
       success of the events, maintaining a baseline of performance measures, and to
       quantitatively measure tangible results. The resulting data enables us to better
       monitor the validity of our programs.”

However, an analysis of FY 1996 TEMS data for TD and US&FCS trade events showed that
more than one-half did not have end-of-show reports. This lack of reporting compliance
precludes ITA management from relying on TEMS for the performance measures that are
required under the Government Performance and Results Act (GPRA). The following table
shows the percentage of trade events missing end-of-show reports.




                                                10
Trade Events: Improvements Needed                                                     Final Report
in Planning and Management                                                            March 1998

                      FY96 Trade Events Missing End-of-Show Reports
     ITA Unit          Trade Events      Missing Reports       Percent of           Average
                                                             Missing Reports     Number of Days
                                                                                  Since Event
        TD                   83                  59                71%                 425
   US&FCS-IO               185                 110                 59%                 455
  US&FCS-EPS               128                   51                40%                 454
       Total               396                 220                 56%                 4472

According to ITA officials, the reviewing officer is responsible for ensuring that the end-of-show
report is forwarded to the Office of Trade Events Management (OTEM) for entry into TEMS.
Headquarters officials in US&FCS’s International Operations thought that the posts regularly
submitted reports, but they could not readily produce copies of the missing reports. In our
opinion, these specialists did not attach much importance to the end-of-show reports. Asked
whether the reports were used to derive performance measures, one specialist said that
performance measures were based on quarterly reports from the posts and questioned the purpose
of end-of-show reports. When asked how the performance outcomes of a particular event were
identified, this specialist said that the post generally sent an electronic mail message with this
information immediately after the event, so the end-of-show report was not really needed.
Another specialist said that he just filed any end-of-show reports that he received.

Two of the nine FCS officers from whom we received comments said that they regularly submit
end-of-show reports from their posts, but were not certain that OTEM is receiving all of the end-
of-show report cables. One FCS officer would like to know if Washington officials are truly using
the reports since the preparation of reports consumes the post’s limited time and resources.

We asked TD officials why they did not ensure that end-of-show reports were entered into
TEMS. One reason given by TD officers was that by the time after-event reports were received,
officers were too busy working on other events and did not have the time or inclination to
monitor reports on past events. A second reason given was that the end-of-show reports were of
little or no interest to anyone, except possibly for requests under the Freedom of Information Act.
In their opinion, after-event reporting was a paperwork requirement, not a high priority.




       2
        Weighted Average

                                                11
Trade Events: Improvements Needed                                                       Final Report
in Planning and Management                                                              March 1998

B.     TEMS Does Not Include All Trade Events Supported by ITA

As noted, TEMS was created “to plan, budget, monitor and evaluate ITA-run events.” However,
it is not clear whether TEMS was intended to track all trade events supported by ITA resources,
or only trade events using money from the trade event trust fund. We found that TEMS includes
some, but not all, trade events that do not use trust funds but are still supported by ITA resources.
One TD office has developed its own database to track events on which its staff spends time and
resources. A significant number of these events, e.g., meeting with visiting foreign delegations,
were not included in TEMS.

We believe that ITA needs to clarify whether TEMS should track all trade events supported by
ITA resources or only trade events using trade event trust funds. We also believe that ITA
management must decide whether it still intends to rely on TEMS for the performance measures
that are required under GPRA. If ITA management intends to rely on TEMS, guidelines and
internal controls should be developed to ensure that performance data is entered on a timely basis.
If ITA management does not intend to rely on TEMS for performance data, then the event
officers should no longer be required to report end-of-show data.

C.     Recommendations

We recommend that the Under Secretary for International Trade ensure that the following actions
are taken:

(1)    Clarify whether TEMS should track all trade events supported by ITA resources or only
       trade events using trade events trust funds.

(2)    Decide what role TEMS will have in providing performance data. If ITA management
       intends to rely on TEMS, guidelines and internal controls should be developed to ensure
       that performance data is entered on a timely basis. If ITA management does not intend to
       rely on TEMS for performance data, the event officers should no longer be required to
       report end-of-show data.

D.     ITA Response to Draft Report and OIG Analysis

In response to our draft report, the Deputy Under Secretary of ITA agreed with our
recommendations and indicated that ITA will determine how to clarify whether TEMS should
track all trade events supported by ITA resources or only trade events using trust funds. He also
agreed to assess what role TEMS will have in providing performance data. ITA indicated that
action will be taken to ensure that overseas posts complete end-of-show reports promptly, and
that headquarters captures the data in an accurate and timely manner. Other comments and

                                                 12
Trade Events: Improvements Needed                                                 Final Report
in Planning and Management                                                        March 1998

suggested changes to the draft report by the Deputy Under Secretary were considered and, where
appropriate, are reflected in the final report.




                                              13
Trade Events: Improvements Needed                                                     Final Report
in Planning and Management                                                            March 1998

IV.     BASIS FOR AND DEFINITIONS OF ITA’S PERFORMANCE MEASURES FOR
        TRADE EVENTS ARE UNCLEAR

As discussed in the previous section, despite the intent of senior ITA officials to have TEMS
provide critical performance data, trade-events reporting is too incomplete for TEMS to be
considered a reliable indicator of performance. An internal US&FCS memo, dated
December 30, 1996, stated that the TEMS database did not accurately reflect the actual levels of
performance and workload experienced by US&FCS units. For this reason, all FCS posts were
asked to submit information on certain performance and workload measures, and those workload
measures, not TEMS data, were shown as US&FCS workload measures in ITA’s FY 1998
budget submission.

A.      ITA’s Office of Financial Management (OFM) Cannot Explain Basis for
        Performance Measures

A comparison of the FY 1996 performance measures reported by TEMS and those indicated in
ITA’s FY 1998 budget submission shows the following discrepancies.

     Comparison of FY 1996 Performance and Workload Measures for ITA Trade Events
        Source             US&FCS                TD                MAC              Total ITA
        TEMS                   328                83                  8                 419
 Budget Submission           1,621                70                258               1,949

The trade-event performance measure used in the budget submission included overseas trade
missions supported by state or local government entities, industry, or associations. Since these
events do not use trade event trust funds, TEMS generally does not have data on this type of
trade mission. However, this variation does not explain the large difference between the number
of ITA trade events shown by TEMS and the amount shown in the budget submission.

While the number of trade events for ITA, TD, and MAC are given in ITA’s FY 1998 budget
submission, the number of US&FCS trade events is not specified and cannot readily be
determined from the workload measures. ITA budget officials said that the US&FCS had 1,621
FY 1996 events, but they could not explain what types of activities were included in that figure.

An ITA program official said that US&FCS had about 1,200 trade events in FY 1996. As shown
in Appendix F, the figures for 13 of the workload measures, common to both the internal



                                                14
Trade Events: Improvements Needed                                                    Final Report
in Planning and Management                                                           March 1998

US&FCS memo, dated December 30, 1996, and ITA’s FY 1998 budget submission, total 1,177
trade events.

In order to comply with GPRA, ITA must be able to define what workload measures are being
used as performance measures and support the figures used. We believe that ITA needs to clarify
what types of events qualify as “trade events” and what workload measures are included as
performance measures for trade events. We also believe that if ITA management intends to use
TEMS as the source for ITA trade-event performance measures, then the defined workload
measures must be entered into TEMS.

B.     Recommendations

We recommend that the Under Secretary for International Trade ensure that the following actions
are taken:

(1)    Clearly identify and define the workload statistics to be included as performance measures
       for trade events.

(2)    Enter relevant workload measures into TEMS, if TEMS is intended to provide
       performance measures.

C.     ITA Response to Draft Report and OIG Analysis

In response to our draft report, the Deputy Under Secretary for International Trade generally
agreed with our recommendations and indicated that ITA management has already initiated a
review of all surveys and survey techniques employed by ITA units, post end-of-event reporting
requirements, and other instruments used to collect performance data. ITA’s comments and
suggested changes to the draft report were considered and, where appropriate, are reflected in the
final report.




                                               15
Trade Events: Improvements Needed                                                       Final Report
in Planning and Management                                                              March 1998

V.     FINANCIAL STATUS OF INDIVIDUAL ITA TRADE EVENTS CANNOT BE
       DETERMINED FROM TEMS OR RECORDS OF ITA’S OFFICE OF
       FINANCIAL MANAGEMENT

TEMS was established to provide ITA with an event planning and financial data system for trade
event expenditures. TEMS was also developed to assist in budget planning and expenditure
tracking by recording collections, authorizations, and obligations. However, we found that
TEMS lacks sufficient final obligation reports to adequately monitor financial data from ITA’s
trade events. We also found that many trade events lack unique project numbers in OFM’s
system.

A.     TEMS Lacks Final Obligation Reports for Most ITA Trade Events

TEMS maintains a Single Event Status Report (SESR) for each trade event for which a fiscal plan
or other financial information has been submitted. The submission of a fiscal plan is the
responsibility of the ITA unit proposing the event. The post is responsible for submitting a
separate final obligation/liquidation report to OTEM no later than 60 calendar days after an event
is held. The final obligation reports received from the posts are not considered official. The
official accounting records are received by ITA Accounting from the State Department.
However, TEMS was designed to maintain the current financial status of trade events, since ITA
accounting records are not current due to delays in receiving the information from State.
According to ITA officials, for US&FCS events, the reviewing officer is responsible for assuring
that the final obligation report is entered into TEMS by OTEM. For TD events, TD officers are
responsible for entering the data directly into TEMS.

However, we found that final obligation reports were not submitted for most FY 1996 trade
events. Most TD industry specialists said that TEMS was such a cumbersome system that they
did not have the time or inclination to struggle with inputting information beyond the required
initial data, i.e., an initial fiscal plan and collections. Without these, no travel funds can be
authorized for a trade event. According to an EPS official, TD staff cannot readily access TEMS
from their dedicated terminals since TD changed its Novell software a few months ago.
However, data entry was a problem for TD even before the change in Novell software. Several
TD industry specialists said that if they could access TEMS from their computer terminals,
reporting to TEMS would no longer be a problem.

Trade specialists in IO headquarters also were not concerned with final obligation reports. One
specialist used the latest fiscal plan shown in TEMS, not the final obligation report, to determine
the final cost of the region’s events. Another specialist used individually maintained records to
determine the final cost of events in the region.


                                                 16
Trade Events: Improvements Needed                                                      Final Report
in Planning and Management                                                             March 1998

When asked about the missing final obligation reports for his post, one FCS officer explained that
some events listed in TEMS did not use trust funds so there would be no obligation reports
required for those events. This officer also thought that a few events listed as “actual events” had
been canceled, but were still appearing on the list of actual events. A trade specialist in an IO
regional office also thought that a few canceled events were included on the list of actual events.

The following table shows the number and percentage of submitted final obligation reports for
trade events in FY 1996:

                   Trade Events With Final Obligation Reports (FY 1996)
      ITA Unit            Actual Trade       SESRs With          SESRs With        Percent With
                            Events          Financial Data      Financial Data     Financial Data
                                                                  and Final          and Final
                                                                  Obligation         Obligation
                                                                   Reports            Reports
         TD                     83                 61                   9               11%
     US&FCS-IO                 185                132                 44                24%
     US&FCS-EPS                128                124                 58                45%
        Total                  396                317                111                28%

Even if one includes only events that had SESRs with financial data, the percent of final obligation
reports is low. Only 35 percent of such events had final obligation reports submitted.

We believe that each trade event using trust funds should have a final obligation report submitted
by the post. Due to the lack of final obligation reports being entered into its database, TEMS is
unable to provide ITA officials with a complete record of an event’s collections and expenses.

B.     Many Trade Events Do Not Have Unique Project Numbers in OFM’s System

With regard to TD trade events, generally only events for Textiles, Apparel, and Consumer Goods
(TACG) have individual project ID numbers in OFM’s system. According to an OFM budget
analyst, the other TD offices have project numbers assigned to each office, not to each individual
event. An OEPC official explained that the amounts involved with most TD events were too
immaterial to justify tracking them individually. According to the OFM analyst, about $1.3
million of TD’s annual $2.4 million trade-event net collections has been from TACG events.



                                                 17
Trade Events: Improvements Needed                                                     Final Report
in Planning and Management                                                            March 1998

Excluding the 15 TACG events in FY 1996 identified by TEMS, TD’s 68 non-TACG trade events
had an average net collection of approximately $16,200.

With regard to US&FCS trade events, certain event types are tracked as groups by OFM, i.e.,
events in those categories do not have unique project ID numbers. Examples include
Matchmakers, Certified Trade Fairs, Certified Trade Missions, Multi-State Catalog Shows, and
the International Buyers Program (formerly called the Foreign Buyers Program). US&FCS trade
events not included in those group categories would generally have unique project ID numbers.
In FY 1996, 114 of US&FCS’s 314 events, excluding events not in TEMS, were in those five
groups.

In ITA’s FY 1996 financial statement audit, Price Waterhouse recommended that a unique project
identification number be assigned to each trade event. We believe that ITA should be able to
evaluate the collections and expenses for each trade event. To accomplish this, OFM should
assign unique project identification numbers to each trade event.

C.     Recommendations

We recommend that the Under Secretary for International Trade ensure that:

(1)    Financial data are submitted by the posts for all overseas trade events.

(2)    Financial obligation reports are entered into TEMS at ITA headquarters.

(3)    Unique project identification numbers are assigned to all ITA trade events so that the
       events can be tracked individually.

D.     ITA Response to Draft Report and OIG Analysis

In response to our draft report, the Deputy Under Secretary of ITA stated that ITA concurred
with our first and third recommendations in this section, but disagreed with our second
recommendation. ITA objected to having TEMS portrayed as a “financial accounting system.”

However, we note that a 1995 report on ITA’s Trade Events Management System by ITA’s
Office of Administration referred to TEMS as a “financial accounting system.” The report stated
that “TEMS, used correctly, provides ITA with an event planning system and a financial
accounting system for trade events expenditures.” A July 1995 memorandum from ITA’s Deputy
Under Secretary to the Assistant Secretaries stated that “Since TEMS serves as the primary
source of financial data concerning specific events, Board recommendations and decisions must
necessarily rely heavily on these data.”

                                                18
Trade Events: Improvements Needed                                                Final Report
in Planning and Management                                                       March 1998

We have changed this section to refer to TEMS as a “financial data” system rather than a
“financial accounting” system. However, we stand by our second recommendation that financial
obligation reports should be entered into TEMS at ITA headquarters, by OTEM for US&FCS
events and by TD officers for TD events. This recommendation stems from ITA’s own
description of TEMS as “the primary tool used by the Trade Events Board to plan, budget,
monitor and evaluate ITA-run events.”




                                             19
Trade Events: Improvements Needed                                                      Final Report
in Planning and Management                                                             March 1998

VI.    EFFECTIVENESS OF BUSINESS FACILITATION CENTERS AND PRODUCT
       LITERATURE CENTERS WARRANTS MANAGEMENT REVIEW

Several US&FCS officials questioned the usefulness of BFCs, Product Literature Centers (PLCs),
and catalog shows. These types of events represented 40 percent of TD’s events, but were only
12 percent of the events of US&FCS’s International Operations and 3 percent of the events of
US&FCS’s Export Promotion Services in FY 1996. Two of the nine FCS officers from whom we
received comments said that the usefulness of these types of events depended on the market.
These officers said that they discouraged the scheduling of such events at their posts, which were
both highly competitive and sophisticated markets. The FCS officers advised that it has been their
experience that when other exhibitors featured salespeople and sample products at a trade show at
their posts, a catalog exhibit would be ignored.

An experienced TD industry specialist noted that the primary advantage of these shows is that
they are a low-cost method for small, new-to-market companies to test an overseas market. This
specialist also said that many new-to-market or new-to-export firms are reluctant to invest the
resources needed for a trade fair, both the cost to participants and the time needed by a high-level
company official. He added that these firms are willing to try a low-cost alternative to see what
interest might exist in an overseas market for their products or services. When asked why TD’s
BFC and PLC events could not be done by the posts, several TD officials answered that the post
staff would generally not be able to answer industry-specific questions that might be raised at
these shows. Asked if these types of events resulted in export sales, an OEPC official said that
TD did not have any information on results from these events.

Two TD BFCs were canceled in FY 1996 at the request of the show organizer. In one event, the
reason given by the organizer was that the BFC might be a deterrent to manufacturers who were
thinking of exhibiting. In the second event, the organizer believed that U.S. companies should
exhibit at the show and not use the video/catalog showcase concept. One of TD’s canceled
events in FY 1997 was a PLC canceled at the request of the new show organizer that would not
allow PLCs at its shows.

Based on our discussions with FCS officers and our review of canceled TD events, we believe
that ITA management should review the effectiveness of these types of trade events.

A.     Recommendation

We recommend that the Under Secretary for International Trade ensure that the necessary action
is taken to measure the effectiveness of BFCs, PLCs, and catalog shows and to determine if these
types of events are an efficient use of ITA resources.


                                                 20
Trade Events: Improvements Needed                                                 Final Report
in Planning and Management                                                        March 1998

B.     ITA Response to Draft Report

ITA concurred with our recommendation on the need to measure the effectiveness of these types
of events.




                                             21
                                                                                     APPENDIX A

                                   Types of ITA Trade Events

The abbreviations and definitions of the types of trade events were obtained from ITA documents
or interviews with ITA officials, except for the definition of the Gold Key Service (GKEY).

Business Facilitation Centers (BFC) - Events placed at leading international trade fairs to assist
U.S. participants or promote the products of specific companies through any combination of
event types such as video presentations, panel displays, or catalogs. These are generally low
expense, low workload ways of gaining a presence in major trade fairs. As a rule, the workload is
limited to about one week by TD or US&FCS Washington and two weeks of post work.

Business Information Office (BIO) - An office staffed by the Embassy at international trade
fairs to assist U.S. companies at the fair. Frequently, the booth is donated by private organizers in
order to gain the expertise the Embassy offers. Generally, this office contains a typewriter, fax or
telex machine, telephone, and secretarial assistance. It is operated at cost and requires about one
staffer’s workweek.

Certified Trade Fair (CTF) - An overseas exhibition of U.S. products--planned, recruited, and
managed by a U.S. private sector trade fair organizer--which has gone through the trade fair
certification program. Once certified, the event is endorsed and supported by the Department.
Private organizers contribute $1,500 to cover Commerce expenses. The review process takes
about one US&FCS staffer’s workweek spread over about two months. Posts spend another two
weeks assuring that the needs of U.S. exhibitors are met and staffing a Business Information
Office (BIO) at the fair.

Certified Trade Missions (CTM) are industry organized, government approved missions.
Although these missions are recruited by the private sector, each requires about two to three
weeks of logistical support from US&FCS Washington. Each country receiving the missions
must spend about four staff weeks arranging for meetings for the participants and marketing the
event.

Gold Key Service (GKEY) - A program in which US&FCS market specialists will identify
potential target regions and countries with a particular need for an individual company’s products
or services. (Management Review, September 1994, p. 57) According to a US&FCS fee
schedule dated February 1996, the fee ranges from $150 to $650 and depends on the country.

International Buyer Program (IBP), formerly Foreign Buyer Program (FBP) - A program
which annually supports 15 to 18 leading U.S. trade shows in high export potential industries.
FCS posts promote these shows overseas to increase attendance by qualified foreign buyers,
agents, and distributors, and organize formal foreign buyer group visits. US&FCS District
Offices provide export counseling to interested U.S. exhibitors before the show, and the Office of
Public/Private Initiatives manages an International Business Center at each show to provide an
array of services from export counseling to matching the needs of the foreign buyers with
products of U.S. sellers. This type of event takes about five weeks of Washington time to
organize and eight to 10 weeks of work by each post sending foreign buyers.

Matchmaker Trade Delegation (MKR) - A program designed to match participants with
potential agents, distributors, licensees, franchisees or joint venture partners. The delegations are
composed of 10 to 100 senior executives, usually of small, new-to-market companies. Pre-
screened appointments are made for each participant. Participants pay between $2,500 and
$4,500. Each matchmaker program consumes about 14 staff workweeks spread over several
months. Once recruited, each post, to be visited by a delegation, spends about four weeks
marketing it, setting up appointments, and arranging for space to present the participants.

Multi-State/Catalog Exhibitions (MS/CE) - Horizontal catalog shows organized by US&FCS
and recruited in conjunction with State Economic Development Agencies. Participating states
send trade representatives to manage booths at each stop of the itinerary (usually four locations).
US&FCS recruits firms from nonparticipating states and operates a catalog display at the event.
Companies recruited by US&FCS pay $400 to participate. Formerly called Multi-State Trade
Day (MSTD).

Post Initiated Promotion (PIP) - Events held by most overseas posts. Some are recruited in
conjunction with District Offices; others are done completely by the post. Events include U.S.
exhibitions, seminars, and single-firm business-sponsored promotions. Fees can be as low as
$5,000 or as high as $10,000 depending on the type of event and the locations. Workload varies
as well depending on the event type. Post Initiated Events (PIE) are similar events whose
budgets are less than $5,000.

Privatized Fair (PVF) - A fair that was formerly an ITA event but has been privatized. It is not
certified by the Department and has no USDOC sponsorship. (Refer to CTF above)

Product Literature Center (PLC) - Low-cost exhibits of U.S. firms’ product information (fees
range from $200 to $500). The exhibits are displayed for one to two days in a number of
countries within a market area. Commerce posts invite attendance by end-users, agents and
distributors, and send sales leads directly to firms for their own follow-up.

Regular Catalog (RC) - Catalog show

Trade Fairs (TFO, TFW, SFO, SFW) - The abbreviations “TFO” and “TFW” refer to
international trade fairs not sponsored by the Department. Recruitment for a “TFO” is done by an
overseas post; recruitment for a “TFW” is done by ITA Washington. It takes about 14 weeks
spread over nine to 12 months to recruit participants for an established international trade fair.

The abbreviations “SFO” and “SFW” refer to Solo Fairs, sponsored entirely by the Department
just for U.S. exhibitors. For Solo Fairs, the Department provides exhibition participants with pre-
and post-event logistical and transportation support, design, and management of the U.S.
exhibition, extensive overseas market promotion campaigns to attract an identified business
audience, and arrangement of perspective representatives for new-to-market firms. Recruitment
for a “SFO” is done by an overseas post; recruitment for a “SFW” is done by ITA Washington.
Recruitment for Solo Fairs take slightly longer than recruitment for international trade fairs.
Staging takes approximately eight weeks depending on the size and complexity.

Trade Missions (TM, RTM, SEM, SM) - Trade Missions provide participants with detailed
marketing information, advanced planning, publicity, logistical support, and prearranged
appointments. Participants pay between $2,000 and $5,000 depending on locations and number
of countries visited. Trade missions take about seven weeks of TD time to recruit (slightly more
for seminar missions).

       Reverse Trade Mission (RTM) is a trade event in which international officials are
       brought to the U.S. to meet U.S. companies and view their products
       Seminars (SEM) are events held to brief companies on the legal and regulatory
       requirements for exporting product and establishing business relations abroad. Seminars
       usually last one to two days and are attended by a large number of participants. Seminars
       are held in a target country or region of interest to U.S. firms.
       Seminar Missions (SM) are technical seminars to promote the sales of sophisticated
       products and technology in markets where products are more effectively promoted via
       technical seminars.
                                                       APPENDIX B



        IO Trade Events - FY96
                       By Event Type
 70
       TFO
 60

 50
 40
                SFO
 30                           BFC
                       SEM*
 20                                    TM   RTM
                                                  PIP
 10
  0
        62       30      23    24      18   17    11



SEM* includes one SM


       EPS Trade Events - FY96
                       By Event Type
 80
       CTF

 60


 40

                        FBP
 20
                CTM           MKR           PVF
                                    MSTD          RC
   0
        71       11      22    9       1    10     4
                                                                                 APPENDIX C




         Reasons TD FY96 Events Were Canceled Less than Eight Weeks Before Event
            Reason                TM     BFC      TFW      SFW      SM      RTM      Total
 Furlough                           1     2        3                         1         7
 Insufficient Industry              4              1         1                         6
 Interest
 Postponement                       5                                 1                6
 By Organizer                             2                           1                3
 Event Certified                          1        1                                   2
 Scheduling Error                   1                                                  1
 Loss of TD Staff                         1                                            1
 Lack of Post Response              1                                                  1
 Total                             12     6        5         1        2      1        27



TM       Trade Mission

BFC      Business Facilitation Center

TFW      International Trade Fair with recruitment done by ITA Washington

SFW Solo Fair with recruitment done by ITA Washington

SM       Seminar Missions

RTM Reverse Trade Mission
                                                                                       APPENDIX D




            Reasons IO FY96 Events Were Canceled Less than Eight Weeks Before Event
            Reason            SFO          TFO   TM       PIP     CTM      BFC    PLC      Total
    Postponement                            3     1         4       1        1     1         11
    Economic                    7                                                             7
    Conditions
    Erroneously                             2                                1                3
    Categorized
    Unable to Meet              1           1               1                                 3
    Recruitment Goals
    Other*                      2                           1                                 3
    By Organizer                                  1                 1                         2
    Lack of Post                            1                                                 1
    Resources
    Total                      10           7     2         6       2        2     1        30



SFO         Solo Fair with recruitment done by an overseas post

TFO         International Trade Fair with recruitment done by an overseas post

TM          Trade Mission

PIP         Post Initiated Promotion

CTM Certified Trade Mission

BFC         Business Facilitation Center

PLC         Product Literature Center

C           TEMS showed “other” as the reason for cancellation for the two SFOs but had no change
            forms for these two events. The change form for the canceled PIP gave no reason for the
            cancellation.
                                                                         APPENDIX E




         Reasons TD FY97 Events Were Canceled Less than Eight Weeks Before Event
             Reason                     TM   RTM       BFC       PLC        Total
 Insufficient Industry Interest          7                                     7
 By Organizer                                 1                   2            3
 Loss of TD Staff                        1              1                      2
 Should Not Have Been on                 2                        1            3
 Calendar
 Postponement                            1                                     1
 Post Unresponsive                       1                                     1
 Conflict with Other TM                  1                                     1
 Secretarial Directive                   1                                     1
 No Foreign Industry Interest                 1                                1
 Lack of Market Research                                          1            1
 Political Reason                                                 1            1
 Total                                  14    2         1         5          22



TM       Trade Mission

RTM Reverse Trade Mission

BFC      Business Facilitation Center

PLC      Product Literature Center
